No. 19-1291

In the Supreme Court of the United States
TIMOTHY WAYNE KEMP,
Petitioner,
v.
DANNY BURLS, CONNIE JENKINS, MAURICE WILLIAMS,
STEVE OUTLAW, and MARVIN EVANS,
Respondents.
CERTIFICATE OF SERVICE
I, Nicholas J. Bronni, counsel for Respondents, Danny Burls, Connie Jenkins,
Maurice Williams, Steve Outlaw, and Marvin Evans, hereby certify that on this day,
May 20, 2020, I caused one copy of Respondent’s Non-Opposition to Former Corrections Directors’ Motion for Leave to File Amicus Curiae Brief to be served by email
on the following counsel:
Daniel M. Greenfield
daniel-greenfield@law.northwestern.edu
Counsel for Petitioner
Danielle C. Jefferis
djefferis@law.du.edu
Counsel for Proposed Amici Curiae
I further certify that all parties required to be served have been served.

/s/ Nicholas J. Bronni
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov

